EXHIBIT 1

1308

767 FEDERAL REPORTER, 3d SERIES

incomplete that they could not be used
without undue difficulty.
[10] Contrary to Mukand’s argument,
the deficiencies in its responses were not
limited to a discrete category of information. As Commerce noted, Mukand assigned the ‘‘same amount of conversion
costs per kilogram of bar produced, irrespective of the final size of the product
produced.’’ J.A. 1604. Mukand thus
premised all of its production cost data on
the assumption that product size is not a
significant cost factor—an assumption it
failed to support. In general, use of partial facts available is not appropriate when
the missing information is core to the antidumping analysis and leaves little room for
the substitution of partial facts without
undue difficulty.12 Without cost data broken down by product size, Commerce was
unable to differentiate between different
types of steel bar products and could not
calculate an accurate constructed value for
any of Mukand’s products. We therefore
hold that Commerce’s reliance on total
AFA is supported by substantial evidence.
III
For the reasons set forth above, we
affirm the decision of the Trade Court.
AFFIRMED

VIRNETX, INC., Plaintiff–Appellee,
and
Science Applications International
Corporation, Plaintiff–
Appellee,
v.
CISCO SYSTEMS, INC., Defendant,
and
Apple Inc., Defendant–Appellant.
No. 2013–1489.
United States Court of Appeals,
Federal Circuit.
Sept. 16, 2014.
Background: Patentee brought action
against mobile phone manufacturer, alleging infringement of patents describing
method of transparently creating virtual
private network (VPN) between client
computer and target computer and patents
disclosing secure domain name service.
The United States District Court for the
Eastern District of Texas, Leonard Davis,
Chief Judge, 2009 WL 2370727 and 2012
WL 3135639, construed the claims, and
then denied manufacturer’s post-trial motions after jury returned verdict in patentee’s favor 925 F.Supp.2d 816. Manufacturer appealed.
Holdings: The Court of Appeals, Prost,
Chief Judge, held that:

,

(1) term ‘‘domain name’’ meant name corresponding to Internet Protocol (IP)
address;
(2) term ‘‘secure communication link’’
meant direct communication link that
provided data security and anonymity;

12. See Shanghai Taoen Int’l Co. v. United
States, 360 F.Supp.2d 1339, 1348 n. 13 (Ct.

Int’l Trade 2005).

VIRNETX, INC. v. CISCO SYSTEMS, INC.
Cite as 767 F.3d 1308 (Fed. Cir. 2014)

(3) substantial evidence supported jury
verdict that accused product met ‘‘direct communication’’ limitation;
(4) accused feature in mobile phone manufacturer’s product met ‘‘determining
whether’’ limitation;
(5) substantial evidence supported jury’s
finding that feature in accused product
created ‘‘VPN’’ or ‘‘secure channel’’
that extended from client to target
computer;
(6) security provided by accused system
that included encryption on insecure
paths but otherwise relied on security
provided by private networks was not
equivalent to ‘‘encrypted channel’’;
(7) patentee could not rely on entire market value of multi-component product
containing several non-infringing features with no relation to patented feature to approximate reasonable royalty
base; and
(8) evidence relying on 50-50 starting
point based on bargaining solution
theorem was not admissible.

1309

4. Patents O159
Although courts are permitted to consider extrinsic evidence like expert testimony, dictionaries, and treatises when construing a patent claim term, such evidence
is generally of less significance than the
intrinsic record.
5. Patents O101(2)
Term ‘‘domain name,’’ in patents that
disclosed domain name service (DNS) system that resolved domain names and facilitates establishing secure communication
links, meant name corresponding to Internet Protocol (IP) address.
6. Patents O101(2)
Term ‘‘secure communication link,’’ in
patents that disclosed domain name service (DNS) system that resolved domain
names and facilitates establishing secure
communication links, meant direct communication link that provided data security
and anonymity.
7. Courts O96(7)

Affirmed in part, reversed in part, vacated
in part, and remanded.

In a patent case, the Court of Appeals
for the Federal Circuit reviews the denial
of a motion for judgment as a matter of
law (JMOL) or a new trial under the law
of the regional circuit.

1. Patents O324.5

8. Federal Courts O3602

Patent claim construction is a question
of law that is reviewed de novo.

The Fifth Circuit requires that a
jury’s determination must be upheld if it is
supported by substantial evidence.

2. Patents O165(3), 167(1)
The process of construing a patent
claim term begins with the words of the
claims themselves; however, the claims
must be read in view of the specification,
of which they are a part.
3. Patents O165(5)
The patent claim differentiation doctrine disfavors reading a limitation from a
dependent claim into an independent
claim.

9. Patents O312(6)
Substantial evidence supported jury
verdict that accused product met ‘‘direct
communication’’ limitation in patents disclosing secure domain name service; each
claim required some indication that domain
name service system supported establishing secure communication link, relay server created two separate communications,
network address translators (NAT) used
by accused products did not impede direct

1310

767 FEDERAL REPORTER, 3d SERIES

communication but operated like routers
or firewalls, and NAT router still allowed
for ‘‘end-to-end communication between
the two devices’’ because it merely translated addresses from public address space
to private address space, but did not terminate the connection.
10. Patents O235(2)
Accused feature in mobile phone manufacturer’s product met ‘‘determining
whether’’ limitation of patents generally
describing method of transparently creating virtual private network (VPN) between
client computer and target computer, since
manufacturer’s accused feature could be
configured to infringe based on manufacturer’s internal documents and source code
and ‘‘determining whether’’ step could be
performed by comparing requested domain
name against list of domain names; while
feature could initiate VPN connections
with unsecure websites, feature was not
intended to be used in that manner and
there was no requirement in claims for
verification of security of requested website or server.
11. Patents O312(6)
Substantial evidence supported jury’s
finding that feature in accused product
created ‘‘VPN’’ or ‘‘secure channel’’ that
extended from client to target computer
and thus literally infringed claim of patent
that required creating ‘‘secure channel’’
‘‘between’’ client and secure server; path
extending from virtual private network
(VPN) server to target computer, i.e.,
within private network, would be secure
and anonymous owing to protection provided by private network, paths beyond VPN
server could be rendered secure and anonymous by means of ‘‘physical security’’
present in private corporate networks, and
patentee did not have to prove that accused product did not have any non-infringing modes of operation.

12. Patents O237
Security provided by accused system
that included encryption on insecure paths
but otherwise relied on security provided
by private networks was not equivalent to
‘‘encrypted channel’’ required by claim in
patent that generally described method of
transparently creating virtual private network (VPN) between client computer and
target computer, and thus accused product
did not infringe under equivalents doctrine; ‘‘security’’ of private network could
not be equated with ‘‘encryption’’ provided
by VPN server because encryption was
narrower, more specific requirement than
security, according to patent.
13. Patents O237
To find infringement under the equivalents doctrine, any differences between
the claimed invention and the accused
product must be insubstantial; insubstantiality may be determined by whether the
accused device performs substantially the
same function in substantially the same
way to obtain substantially the same result
as the patent claim limitation.
14. Patents O314(5)
Under the equivalents doctrine,
whether an accused device performs substantially the same function in substantially the same way to obtain substantially the
same result as the patent claim limitation
is a question of fact.
15. Patents O237
‘‘Vitiation’’ is not an exception to the
doctrine of equivalents, but instead is a
legal determination that the evidence in a
patent suit is such that no reasonable jury
could determine two elements to be equivalent.
16. Patents O112.5
A party challenging the validity of a
patent must establish invalidity by clear
and convincing evidence.

VIRNETX, INC. v. CISCO SYSTEMS, INC.
Cite as 767 F.3d 1308 (Fed. Cir. 2014)

1311

17. Patents O324.55(4)

22. Federal Courts O3598(5)

Anticipation in a patent case is a factual question that is reviewed for substantial evidence.

The Fifth Circuit reviews a district
court’s exclusion of relevant evidence on
the basis that its probative value is substantially outweighed by danger of unfair
prejudice for clear abuse of discretion resulting in substantial prejudice. Fed.
Rules Evid.Rule 403, 28 U.S.C.A.

18. Patents O72(1)
A patent claim is anticipated only if
each and every element is found within a
single prior art reference, arranged as
claimed.
19. Patents O62(1)
Substantial evidence supported finding that patents generally describing
method of transparently creating a virtual
private network (VPN) between a client
computer and a target computer and patents disclosing secure domain name service were not invalid as anticipated; patent
owner presented evidence and testimony
that prior publication failed to disclose several claim limitations including, ‘‘secure
communication link,’’ ‘‘virtual private network,’’ ‘‘a DNS proxy server,’’ ‘‘an encrypted channel,’’ and ‘‘secure channel.’’ 35
U.S.C.A. § 102(a).
20. Evidence O146
District court would not have abused
its discretion in finding that probative value of evidence that mobile phone manufacturer initiated re-examinations of patents
generally describing method of transparently creating a virtual private network
(VPN) between client computer and target
computer and patents disclosing secure domain name service was substantially outweighed by risk of unfair prejudice to patentee, confusion with invalidity on the
merits, or misleading jury, thereby justifying exclusion in patent infringement action.
Fed.Rules Evid.Rule 403, 28
U.S.C.A.
21. Courts O96(7)
In a patent case, regional circuit law is
applied to evidentiary issues.

23. Patents O318(4.1)
Patentee could not rely on entire market value of multi-component product containing several non-infringing features
with no relation to patented feature to
approximate base for reasonable royalty
that manufacturer of accused products
would have been willing to offer to pay to
patentee during hypothetical negotiation,
without attempting to apportion value attributable to patented features.
35
U.S.C.A. § 284.
24. Patents O319(1)
The most common method for determining a reasonable royalty is the hypothetical negotiation approach, which attempts to ascertain the royalty upon which
the parties would have agreed had they
successfully negotiated an agreement just
before patent infringement began. 35
U.S.C.A. § 284.
25. Patents O319(1)
In a patent case, a reasonable royalty
may be a lump-sum payment not calculated on a per unit basis, but it may also be,
and often is, a running payment that varies
with the number of infringing units; in that
event, it generally has two prongs: a royalty base and a royalty rate. 35 U.S.C.A.
§ 284.
26. Patents O319(1)
Whatever the form of the royalty, a
patentee must take care to seek only those
damages attributable to the infringing features. 35 U.S.C.A. § 284.

1312

767 FEDERAL REPORTER, 3d SERIES

27. Patents O318(4.1)

31. Evidence O555.2

When patent claims are drawn to an
individual component of a multi-component
product, it is the exception, not the rule,
that damages may be based upon the value
of the multi-component product; in the absence of a showing that the patented feature creates the basis for customer demand or substantially creates the value of
the component parts, principles of apportionment apply. 35 U.S.C.A. § 284.

A district court’s ‘‘gatekeeping obligation’’ applies to all types of expert testimony.
Fed.Rules Evid.Rule 702, 28
U.S.C.A.

28. Patents O319(1)
When determining a reasonable royalty in a patent case, absolute precision is
not required when assigning value to a
feature that may not have ever been individually sold; this process may involve
some degree of approximation and uncertainty. 35 U.S.C.A. § 284.
29. Evidence O555.9
Testimony of patentee’s damages expert that relied on entire value of accused
devices and computers as ‘‘smallest salable
units’’ without attempting to apportion value attributable to patented features was
not admissible to approximate base for
reasonable royalty that manufacturer of
accused products would have been willing
to offer to pay to patentee during hypothetical negotiation, for failure to comport
with settled principles of apportionment;
where smallest salable unit was multi-component product containing non-infringing
features with no relation to patented feature, patentee had to demonstrate that
patented features drove demand for accused products. 35 U.S.C.A. § 284; Fed.
Rules Evid.Rule 702, 28 U.S.C.A.
30. Evidence O555.2
The admissibility of expert testimony
is governed by the Federal Rules of Evidence and the principles laid out in Daubert v. Merrell Dow Pharmaceuticals.
Fed.Rules Evid.Rule 702, 28 U.S.C.A.

32. Evidence O555.9
While questions regarding which facts
are most relevant for calculating a reasonable royalty in a patent case are properly
left to the jury, a critical prerequisite is
that the underlying methodology be sound.
35 U.S.C.A. § 284; Fed.Rules Evid.Rule
702, 28 U.S.C.A.
33. Patents O319(1)
When calculating a reasonable royalty, a patentee’s obligation to apportion
damages only to the patented features
does not end with the identification of the
smallest salable unit if that unit still contains significant unpatented features. 35
U.S.C.A. § 284.
34. Patents O318(4.1)
When calculating a reasonable royalty
in a patent case, there is no necessitybased exception to the entire market value
rule; a patentee must be reasonable,
though may be approximate, when seeking
to identify a patent-practicing unit, tangible or intangible, with a close relation to
the patented feature. 35 U.S.C.A. § 284.
35. Patents O319(1)
Patentee must apportion the royalty
down to a reasonable estimate of the value
of its claimed technology, or else establish
that its patented technology drove demand
for the entire product. 35 U.S.C.A. § 284.
36. Evidence O555.9
District court did not abuse its discretion in patent case by permitting testimony from damages expert regarding proper
royalty rate based on allegedly comparable
licenses; four licenses related to actual patents-in-suit and others were drawn to re-

VIRNETX, INC. v. CISCO SYSTEMS, INC.
Cite as 767 F.3d 1308 (Fed. Cir. 2014)

lated technology, and differences were
presented to jury to allow jury to fully
evaluate relevance of licenses.
35
U.S.C.A. § 284.
37. Patents O319(1)
When relying on licenses to prove a
reasonable royalty, alleging a loose or
vague comparability between different
technologies or licenses does not suffice.
35 U.S.C.A. § 284.
38. Evidence O555.9
Evidence relying on 50-50 starting
point based on bargaining solution theorem was not admissible under Daubert to
approximate reasonable royalty rate that
manufacturer of accused product would
have been willing to offer to pay to patentee during hypothetical negotiation, since
patentee did not sufficiently show how
premises of theorem actually applied to
specific facts of case at hand. 35 U.S.C.A.
§ 284; Fed.Rules Evid.Rule 702, 28
U.S.C.A.
39. Patents O319(1)
A patentee may not balance out an
unreasonably high royalty base simply by
asserting a low enough royalty rate.
Patents O328(2)
6,502,135, 7,418,504, 7,490,151, 7,921,211. Valid and Infringed.

William F. Lee, Wilmer Cutler Pickering Hale and Dorr, LLP, of Boston, MA,
argued for defendant-appellant. With him
on the brief were Mark C. Fleming, Lauren B. Fletcher, and Rebecca Bact, of Boston, MA, and Jonathan G. Cedarbaum,
Brittany Blueitt Amadi, and Leah Litman,
* Sharon Prost assumed the position of Chief
Judge on May 31, 2014.

1313

of Washington, DC. Of counsel on the brief
was Danny L. Williams, Williams, Morgan
& Amerson, P.C., of Houston, TX.
J. Michael Jakes, Finnegan, Henderson,
Farabow, Garrett & Dunner, LLP, of
Washington, DC, argued for plaintiffs-appellees. With him on the brief for Virnetx,
Inc. were Kara F. Stoll and Srikala Atluri,
of Washington, DC, and Benjamin R.
Schlesinger, of Atlanta, GA. Of counsel on
the brief were Bradley W. Caldwell, Jason
D. Cassady, and John Austin Curry, Caldwell, Cassady & Curry, of Dallas, TX. On
the brief for Science Applications International Corporation were Donald Urrabazo,
Arturo Padilla, and Ronald Wielkopolski,
Urrabazo Law, P.C., of Los Angeles, CA;
and Andy Tindel, Mann, Tindel & Thompson, of Tyler, TX.
Before PROST,* Chief Judge and
CHEN, Circuit Judge.**
PROST, Chief Judge.
Apple Inc. appeals from a final judgment of the U.S. District Court for the
Eastern District of Texas, in which a jury
found that Apple infringed U.S. Patent
Nos. 6,502,135 (‘‘8135 patent’’), 7,418,504
(‘‘8504 patent’’), 7,490,151 (‘‘8151 patent’’),
and 7,921,211 (‘‘8211 patent’’). The jury
further found that none of the infringed
claims were invalid and awarded damages
to plaintiffs-appellees VirnetX, Inc. and
Science Applications International Corporation (‘‘SAIC’’) in the amount of
$368,160,000.
For the reasons that follow, we affirm
the jury’s findings that none of the asserted claims are invalid and that many of the
asserted claims of the 8135 and 8151 patents are infringed by Apple’s VPN On
** Randall R. Rader, who retired from the position of Circuit Judge on June 30, 2014, did
not participate in this decision.

1314

767 FEDERAL REPORTER, 3d SERIES

Demand product. We also affirm the district court’s exclusion of evidence relating
to the reexamination of the patents-in-suit.
However, we reverse the jury’s finding
that the VPN On Demand product infringes claim 1 of the 8151 patent under
the doctrine of equivalents. We also reverse the district court’s construction of
the claim term ‘‘secure communication
link’’ in the 8504 and 8211 patents and
remand for further proceedings to determine whether the FaceTime feature infringes those patents under the correct
claim construction. Finally, we vacate the
jury’s damages award and remand for further proceedings consistent with this opinion.

and a secure target network address. Id.
at col. 51 ll. 34–40.
Representative claim 1 of the 8504 patent recites:
1. A system for providing a domain
name service for establishing a secure
communication link, the system comprising:
a domain name service system configured to be connected to a communication
network, to store a plurality of domain
names and corresponding network addresses, to receive a query for a network
address, and to comprise an indication
that the domain name service system
supports establishing a secure communication link.
Id. at col. 55 ll. 49–56.

BACKGROUND
The patents at issue claim technology
for providing security over networks such
as the Internet. The patents assert priority to applications filed in the 1990s,
originally assigned to SAIC. VirnetX, a
Nevada-based software development and
licensing enterprise, acquired the patents
from SAIC in 2006.
I.

The 8504 and 8211 Patents and FaceTime

The 8504 and 8211 patents share a common specification disclosing a domain
name service (‘‘DNS’’) system that resolves domain names and facilitates establishing ‘‘secure communication links.’’ 8504
patent col. 55 ll. 49–50. In one embodiment, an application on the client computer sends a query including the domain
name to a ‘‘secure domain name service,’’
which contains a database of secure domain names and corresponding secure network addresses. Id. at col. 50 ll. 54–57,
col. 51 ll. 11–19, col. 51 ll. 29–32. This
allows a user to establish a secure communication link between a client computer

Before the district court, VirnetX accused Apple of infringement based on its
‘‘FaceTime’’ feature. Specifically, VirnetX
accused Apple’s servers that run FaceTime on Apple’s iPhone, iPod, iPad (collectively, ‘‘iOS devices’’), and Mac computers
of infringing claims 1, 2, 5, 16, 21, and 27 of
the 8504 patent as well as claims 36, 37, 47,
and 51 of the 8211 patent. In operation,
FaceTime allows secure video calling between select Apple devices. J.A. 1443. To
use FaceTime, a caller enters an intended
recipient’s e-mail address or telephone
number into the caller’s device (e.g.,
iPhone). J.A. 1451–52. An invitation is
then sent to Apple’s FaceTime server,
which forwards the invitation to a network
address translator (‘‘NAT’’) which, in turn,
readdresses the invitation and sends it on
to the receiving device. J.A. 1821, 1824–
25. The recipient may then accept or decline the call. J.A. 1453. If accepted,
FaceTime servers establish a secure FaceTime call. J.A. 1453. Once connected, the
devices transmit audio/video data as packets across the secure communication path
without passing through the FaceTime
server. J.A. 1820, 1825.

VIRNETX, INC. v. CISCO SYSTEMS, INC.
Cite as 767 F.3d 1308 (Fed. Cir. 2014)

II.

The 8135 and 8151 Patents and VPN
On Demand

A conventional DNS resolves domain
names (e.g., ‘‘Yahoo.com’’) into Internet
Protocol (‘‘IP’’) addresses. See 8135 patent
col. 37 ll. 22–27. A user’s web browser
then utilizes the IP address to request a
website. Id. at col. 37 ll. 24–29.
The 8135 and 8151 patents share a common specification disclosing a system in
which, instead of a conventional DNS receiving the request, a DNS proxy intercepts it and determines whether the request is for a secure site. Id. at col. 38 ll.
23–25. If the proxy determines that a
request is for a secure site, the system
automatically initiates a virtual private
network (‘‘VPN’’) between the proxy and
the secure site. Id. at col. 38 ll. 30–33. If
the browser determines that the request
was for a non-secure website, then the
DNS proxy forwards the request to a conventional DNS for resolution. Id. at col.
38 ll. 43–47.
Representative claim 1 of the 8135 patent recites:
1. A method of transparently creating
a virtual private network (VPN) between a client computer and a target
computer, comprising the steps of:
(1) generating from the client computer
a Domain Name Service (DNS) request
that requests an IP address corresponding to a domain name associated with
the target computer;
(2) determining whether the DNS request transmitted in step (1) is requesting access to a secure web site; and
(3) in response to determining that the
DNS request in step (2) is requesting
access to a secure target web site, automatically initiating the VPN between the

1315

client computer and the target computer.
Id. at col. 47 ll. 20–32.
Claims 1 and 13 of the 8151 patent are
similar to claim 1 of the 8135 patent except
that they recite initiating an ‘‘encrypted
channel’’ and creating a ‘‘secure channel,’’
respectively, instead of creating a ‘‘VPN.’’
8151 patent col. 46 ll. 55–67, col. 48 ll. 18–
29.
Before the district court, VirnetX accused Apple’s iPhone, iPad, and iPod
Touch of infringing claims 1, 3, 7, and 8 of
the 8135 patent and claims 1 and 13 of the
8151 patent because they include a feature
called ‘‘VPN On Demand.’’ When a user
enters a domain name into the browser of
an iOS device, a DNS request is generated. J.A. 1393–94. VPN On Demand receives the request and checks a list of
domain names for which a VPN connection
should be established, known as a ‘‘configuration file.’’ J.A. 1377. If the entered
domain name matches a domain name in
the configuration file, VPN On Demand
contacts a VPN server to authenticate the
user and, if successful, automatically establishes a VPN between the user’s browser
and the target computer with which the
requested domain name is associated.
J.A. 1377–78, 1396–98.
III.

Five–Day Jury Trial and Post–Trial Motions

On August 11, 2010, VirnetX filed this
infringement action, alleging that Apple’s
FaceTime servers infringe certain claims
of the 8504 and 8211 patents, and that
Apple’s VPN On Demand feature infringes
certain claims of the 8135 and 8151 patents.
Apple responded that FaceTime and VPN
On Demand do not infringe, and that the
asserted claims were invalid as anticipated
by a 1996 publication by Takahiro Kiuchi
et al. (‘‘Kiuchi’’).

1316

767 FEDERAL REPORTER, 3d SERIES

On April 25, 2012, the district court construed disputed claim terms, and a jury
trial commenced on October 31, 2012. After a five-day trial, the jury returned its
verdict, finding all of the asserted claims
valid and infringed. The jury awarded
VirnetX $368,160,000 in reasonable royalty
damages. Apple moved for judgment as a
matter of law (‘‘JMOL’’) or, alternatively,
for a new trial or remittitur. On February
26, 2013, the district court denied Apple’s
motions. VirnetX, Inc. v. Apple Inc., 925
F.Supp.2d 816 (E.D.Tex.2013).
Apple now appeals the denial of its posttrial motion for JMOL or a new trial.
This court has jurisdiction under 28 U.S.C.
§ 1295(a)(1).
DISCUSSION
I.

Claim Construction

On appeal, Apple argues that the district
court erred in construing the terms ‘‘domain name’’ and ‘‘secure communication
link,’’ both recited in the 8504 and 8211
patents. For the reasons that follow, we
affirm the construction of ‘‘domain name’’
and reverse the construction of ‘‘secure
communication link.’’
[1–4] Claim construction is a question
of law that we review de novo. Lighting
Ballast Control LLC v. Philips Elecs. N.
Am. Corp., 744 F.3d 1272, 1276–77 (Fed.
Cir.2014) (en banc); Cybor Corp. v. FAS
Techs., Inc., 138 F.3d 1448, 1456 (Fed.Cir.
1998) (en banc). The process of construing a claim term begins with the words of
the claims themselves. See Vitronics
Corp. v. Conceptronic, Inc., 90 F.3d 1576,
1582 (Fed.Cir.1996); Phillips v. AWH
Corp., 415 F.3d 1303, 1312–14 (Fed.Cir.
2005) (en banc). However, the claims
‘‘must be read in view of the specification,
of which they are a part.’’ Phillips, 415
F.3d at 1315 (quoting Markman v. Westview Instruments, Inc., 52 F.3d 967, 979

(Fed.Cir.1995) (en banc), aff’d 517 U.S.
370, 116 S.Ct. 1384, 134 L.Ed.2d 577
(1996)). Additionally, the doctrine of claim
differentiation disfavors reading a limitation from a dependent claim into an independent
claim.
See
InterDigital
Commc’ns, LLC v. Int’l Trade Comm’n,
690 F.3d 1318, 1324 (Fed.Cir.2012). Although courts are permitted to consider
extrinsic evidence like expert testimony,
dictionaries, and treatises, such evidence is
generally of less significance than the intrinsic record. Phillips, 415 F.3d at 1317
(citing C.R. Bard, Inc. v. U.S. Surgical
Corp., 388 F.3d 858, 862 (Fed.Cir.2004)).
A.

‘‘Domain Name’’

[5] The district court construed ‘‘domain name’’ as ‘‘a name corresponding to
an IP address.’’ Memorandum Opinion &
Order at 16, VirnetX, Inc. v. Cisco Sys.
Inc., No. 6:10–cv–416 (E.D.Tex. Apr. 25,
2012), ECF No. 266 (‘‘Claim Construction
Order ’’). Apple argues, as it did below,
that the proper construction is ‘‘a hierarchical sequence of words in decreasing order of specificity that corresponds to a
numerical IP address.’’ Apple insists that
its construction represents the plain and
ordinary meaning of the term, relying primarily on a technical dictionary definition
and several examples in the specification
(e.g., ‘‘Yahoo.com’’). We disagree. Intrinsic evidence supports the district court’s
construction of ‘‘domain name.’’ The specification of the 8504 and 8211 patents suggests the use of the invention for secure
communications between application programs like ‘‘video conferencing, e-mail,
word processing programs, telephony, and
the like.’’ 8504 patent col. 21 ll. 27–29.
The disclosure of such applications demonstrates that the inventors did not intend to
limit ‘‘domain name’’ to the particular formatting limitations of websites sought by
Apple, i.e., a top-level domain, second-level
domain, and host name.

VIRNETX, INC. v. CISCO SYSTEMS, INC.
Cite as 767 F.3d 1308 (Fed. Cir. 2014)

Additionally, fundamental principles of
claim differentiation disfavor reading Apple’s hierarchical limitation into the independent claims. Dependent claims in both
patents require that ‘‘at least one’’ of the
domain names stored by the system comprise a top-level domain name. See, e.g.,
8504 patent col. 55 ll. 57–59 (‘‘The system
of claim 1, wherein at least one of the
plurality of domain names comprises a toplevel domain name.’’); 8211 patent col. 57
ll. 47–50 (‘‘The non-transitory machinereadable medium of claim 36, wherein the
instructions comprise code for storing the
plurality of domain names and corresponding network addresses including at least
one top-level domain name.’’). The specific
limitation of hierarchical formatting in the
dependent claims strongly suggests that
the independent claims contemplate domain names both with and without the
hierarchical format exemplified by ‘‘Yahoo.com.’’ See InterDigital, 690 F.3d at
1324 (‘‘The doctrine of claim differentiation
is at its strongest TTT ‘where the limitation
that is sought to be ‘‘read into’’ an independent claim already appears in a dependent claim.’ ’’ (quoting Liebel–Flarsheim
Co. v. Medrad, Inc., 358 F.3d 898, 910
(Fed.Cir.2004))).
Such intrinsic evidence is not outweighed by the extrinsic evidence of one
dictionary definition. This is particularly
true here, where the dictionary definition
seems to contemplate web addresses on
the Internet, while the specification makes
clear that the claim term in question is not
so limited. See J.A. 6139–40. Thus, we
affirm the district court’s construction of
the term ‘‘domain name’’ as ‘‘a name corresponding to an IP address.’’
1.

The district court construed VPN to mean
‘‘a network of computers which privately and
directly communicate with each other by encrypting traffic on insecure paths between the

B.

1317

‘‘Secure Communication Link’’

[6] The district court construed ‘‘secure communication link’’ as ‘‘a direct communication link that provides data security.’’ Claim Construction Order at 13.
Apple argues that this term should be
construed consistent with ‘‘VPN,’’ which
the district court construed to require not
only data security but also anonymity.1
As an initial matter, we note that there
is no dispute that the word ‘‘secure’’ does
not have a plain and ordinary meaning in
this context, and so must be defined by
reference to the specification. See Oral
Arg. 31:50–32:40, available at http://www.
cafc.uscourts.gov/oral-argumentrecordings/13-1489/all (acknowledgement
by VirnetX’s counsel that construction of
‘‘secure’’ requires consideration of the
specification).
Moreover, we agree with Apple that,
when read in light of the entire specification, the term ‘‘secure communication link’’
requires anonymity. Indeed, the addition
of anonymity is presented as one of the
primary inventive contributions of the patent. For example, the Background of the
Invention states that ‘‘[a] tremendous variety of methods have been proposed and
implemented to provide security and anonymity for communications over the Internet.’’ 8504 patent col. 1 ll. 32–35 (emphasis
added). It goes on to define these two
concepts as counterpart safeguards against
eavesdropping that could occur while two
computer terminals communicate over the
Internet. Id. at col. 1 ll. 38–54. Security
in this context refers to protection of data
itself, to preserve the secrecy of its contents, while anonymity refers to preventing an eavesdropper from discovering the
computers where the communication is both
secure and anonymous.’’ Claim Construction
Order at 8.

1318

767 FEDERAL REPORTER, 3d SERIES

identity of a participating terminal. Id. at
col. 1 ll. 40–54.
Having thus framed the problem, the
patent (as expected) proposes a solution.
Specifically, the Summary of the Invention
begins by explaining how the invention
improves security by using a ‘‘two-layer
encryption format’’ known as the Tunneled
Agile Routing Protocol, or TARP. Id. at
col. 3 ll. 14–17. First, an ‘‘inner layer’’
secures the data itself, id. at col. 4 ll. 5–7,
and then a second ‘‘outer layer’’ conceals
the data’s ‘‘true destination,’’ id. at col. 3 ll.
34–35. The fact that the Summary of the
Invention gives primacy to these attributes
strongly indicates that the invention requires more than just data security. See,
e.g., C.R. Bard, 388 F.3d at 864 (giving
particular weight to statements in the
Summary of the Invention because
‘‘[s]tatements that describe the invention
as a whole, rather than statements that
describe only preferred embodiments, are
more likely to support a limiting definition
of a claim term’’).
Consistent with this emphasis, the Detailed Description states that ‘‘the message
payload is embedded behind an inner layer
of encryption’’ and ‘‘[e]ach TARP packet’s
true destination is concealed behind an
outer layer of encryption.’’ 8504 patent
col. 9 ll. 60–61, col. 11 ll. 2–4. The concealment requirement appears throughout the
specification and is implicated in every embodiment associated with the ‘‘two-layer
encryption’’ or TARP VPN. The fact that
anonymity is ‘‘repeatedly and consistently’’
used to characterize the invention strongly
suggests that it should be read as part of
the claim. See Eon–Net LP v. Flagstar
Bancorp., 653 F.3d 1314, 1321–23 (Fed.Cir.
2011).
VirnetX attempts to rebut this suggestion by pointing to a single place in the
specification where a ‘‘secure communication path’’ is referred to as providing only

security, without anonymity. See 8504 patent col. 39 ll. 24–35. But that disclosure
relates to the ‘‘conventional architecture’’
of the prior art that suffers precisely because it ‘‘hamper[s] anonymous communications on the Internet.’’ Id. at col. 39 ll.
24, 32–33. And indeed, the specification
goes on to explain how the invention solves
that very problem by setting up a VPN,
which requires anonymity. Id. at col. 39 ll.
46–62.
VirnetX also argues that the specification teaches that different users have ‘‘different needs’’ such that some users need
data security while, in other cases, ‘‘it
may be desired’’ to also have anonymity.
Appellee’s Br. 48 (citing 8504 patent col. 1
ll. 33–52). Thus, VirnetX insists, the
TARP protocol (with its requirement of
anonymity) is but one type of ‘‘secure
communication link,’’ and does not limit
the construction of that term. To be sure,
the specification mechanically prefaces
most passages with the phrase ‘‘according
to one aspect of the present invention.’’
See, e.g., 8504 patent col. 6 l. 36. But the
Background and Summary of the Invention clearly identify the TARP protocol as
a key part of the novel solution to the specific problem identified in the prior art.
Unsurprisingly, therefore, VirnetX has not
identified even a single embodiment that
provides data security but not anonymity.
Moreover, in several instances the specification appears to use the terms ‘‘secure
communication link’’ and ‘‘VPN’’ interchangeably, suggesting that the inventors
intended the disputed term to encompass
the anonymity provided by a VPN. See
Nystrom v. Trex Co., 424 F.3d 1136, 1143
(Fed.Cir.2005) (‘‘Different terms or phrases in separate claims may be construed to
cover the same subject matter where the
written description and prosecution history
indicate that such a reading of the terms
or phrases is proper.’’). For example, it

VIRNETX, INC. v. CISCO SYSTEMS, INC.
Cite as 767 F.3d 1308 (Fed. Cir. 2014)

states that ‘‘[w]hen software module 3309
is being installed or when the user is offline, the user can optionally specify that all
communication links established over computer network 3302 are secure communication links. Thus, anytime that a communication link is established, the link is a
VPN link.’’ 8504 patent col. 52 ll. 15–19
(emphases added). Similarly, in the very
next paragraph the specification states
that ‘‘a user at computer 3301 can optionally select a secure communication link
through proxy computer 3315. Accordingly, computer 3301 can establish a VPN
communication link 3323 with secure server computer 3320 through proxy computer 3315.’’ Id. at col. 52 ll. 25–29 (emphases
added). In both of these instances, the
specification equates the term ‘‘secure
communication link’’ with a ‘‘VPN.’’ The
only counter-example VirnetX can point to
is an instance where the specification
states, in relation to one aspect of the
invention, that ‘‘[t]he secure communication link is a virtual private network communication link over the computer network.’’ Id. at col. 6 ll. 61–63. But equating
the two terms with respect to one aspect of
the present invention is a far cry from
expressly divorcing those terms elsewhere,
particularly in the absence of any embodiment or disclosure that does so.
Thus, we reverse the district court’s
claim construction and conclude that the
term ‘‘secure communication link’’ as used
in the 8504 and 8211 patents requires anonymity. Accordingly, the term should be
construed as ‘‘a direct communication link
that provides data security and anonymity.’’
II.

Infringement

[7, 8] We review the denial of a motion
for JMOL or a new trial under the law of
the regional circuit. Verizon Servs. Corp.
v. Cox Fibernet Va., Inc., 602 F.3d 1325,

1319

1331 (Fed.Cir.2010). The Fifth Circuit requires that a jury’s determination must be
upheld if it is supported by substantial
evidence. ClearValue, Inc. v. Pearl River
Polymers, Inc., 668 F.3d 1340, 1343 (Fed.
Cir.2012) (citing Med. Care Am., Inc. v.
Nat’l Union Fire Ins. Co., 341 F.3d 415,
420 (5th Cir.2003)).
A.

8504 and 8211 Patents

[9] Apple argues that there was not
substantial evidence to support the jury’s
verdict that its FaceTime servers infringe
the asserted claims of the 8504 and 8211
patents. Apple insists that FaceTime does
not infringe the ‘‘secure communication
link’’ claim term for two reasons: first,
because when properly construed it requires anonymity, which the FaceTime
servers do not provide, and second, because they do not provide ‘‘direct’’ communication, as required by the district court’s
claim construction.
With respect to the first argument, we
have now construed the disputed claim
term so as to require anonymity. See
supra at 1319. However, the jury was not
presented with the question of whether
FaceTime infringes the asserted claims
under a construction requiring anonymity.
Thus, we remand for further proceedings
to determine whether Apple’s FaceTime
servers provide anonymity.
With respect to the second argument,
Apple argues that FaceTime servers do
not provide ‘‘direct’’ communication because the communications are addressed to
a NAT, rather than to the receiving device.
Appellant’s Br. 43. The district court concluded that there was substantial evidence
to support the jury’s finding that the NAT
routers used by FaceTime do not impede
direct communication, VirnetX, 925
F.Supp.2d at 831, and we agree. As the
district court noted, VirnetX’s expert testified that the NAT routers still allow for

1320

767 FEDERAL REPORTER, 3d SERIES

‘‘end-to-end communication between the
two devices,’’ J.A. 1565, because they
merely translate addresses from the public
address space to the private address space,
but do not terminate the connection. J.A.
1465, 1536–37. Even Apple’s expert admitted that the connection does not stop at
the NAT routers. J.A.1984.
Apple argues that this testimony cannot
support a finding of infringement because
it is inconsistent with the court’s claim
construction that required ‘‘direct addressability.’’ Appellant’s Br. 43–45. But the
district court considered this argument
and disagreed, noting that its claim construction expressly provided that ‘‘routers,
firewalls, and similar servers TTT do not
impede ‘direct’ communication,’’ and VirnetX presented evidence that NATs operate like routers or firewalls. VirnetX, 925
F.Supp.2d at 831.
Thus, we do not think the district court
erred in finding that there was substantial
evidence on which the jury could have
relied to reach its finding of infringement
on this element.
B.

8135 and 8151 Patents

Apple also argues that there was not
substantial evidence to support the jury’s
verdict that its VPN On Demand product
infringed the asserted claims of the 8135
and 8151 patents for several reasons, discussed in turn below.
1.

‘‘Determining Whether’’

[10] Apple argues that its VPN On
Demand feature does not infringe the asserted claims of the 8135 and 8151 patents
because it does not ‘‘determine whether’’ a
requested domain name is a secure website or server. Instead, Apple insists that
it merely determines whether the requested website is listed in the user-created
‘‘configuration file’’ and initiates a VPN
connection for any domain name on that

list, regardless of whether or not it is
secure. In response, VirnetX argues that
there was substantial evidence demonstrating that the VPN On Demand system
is designed and intended to be used only
for accessing secure private networks.
We agree with VirnetX.
Here, the evidence presented at trial
supports the conclusion that Apple’s VPN
On Demand product infringes the asserted
claim limitation in its normal configuration.
In particular, VirnetX’s expert testified
that Apple’s technical design documents
and internal technical presentations relating to the VPN On Demand system (many
of which are confidential and cannot be
quoted here) make clear that a VPN connection should only be established for private web addresses. Thus, regardless of
whether a user could misconfigure the list
by entering public domain names, Apple’s
planning documents, internal emails, and
presentations all explained that VPN On
Demand’s primary use is to connect users
to secure sites using a VPN. That is all
that is required. See Hilgraeve Corp. v.
Symantec Corp., 265 F.3d 1336, 1343 (Fed.
Cir.2001).
Moreover, this description of the VPN
On Demand feature is consistent with how
the claimed functionality is described in
the specification. For example, in one embodiment, the DNS proxy determines
whether a request is for a secure site by
checking the domain name against a table
or list of domain names. 8135 patent col.
38 ll. 23–30. In other words, the proxy
identifies a request for ‘‘access to a secure
site TTT by reference to an internal table of
such sites.’’ Id. That is precisely how the
VPN On Demand feature operates.
We therefore conclude that the jury’s
finding that the VPN On Demand product
infringes the ‘‘determining whether’’ limi-

VIRNETX, INC. v. CISCO SYSTEMS, INC.
Cite as 767 F.3d 1308 (Fed. Cir. 2014)

tation was supported by substantial evidence.
2.
a.

‘‘Between’’

Literal Infringement of Claim 1
of the 8135 Patent and Claim
13 of the 8151 Patent

[11] Claim 1 of the 8135 patent requires creating a ‘‘VPN’’ ‘‘between’’ the
client and a target computer. 8135 patent
col. 47 ll. 20–22. Similarly, claim 13 of the
8151 patent requires creating a ‘‘secure
channel’’ ‘‘between’’ the client and the secure server. 8151 patent col. 48 ll. 28–29.
For both claims, the district court construed ‘‘between’’ to mean ‘‘extending
from’’ the client to the target computer.
Claim Construction Order at 26.
Apple argues that its VPN On Demand
product fails to meet this limitation because it only secures communications between the iPhone and the VPN server, but
not between the VPN server and the target computer. VirnetX responds that Apple’s product is intended to be used with
private networks, which are generally configured to be both secure and anonymous.
In other words, VirnetX argues that the
secure channel between the VPN server
and the target computer is provided by the
target computer itself. After considering
the record as a whole, we conclude that
there was substantial evidence to support
the jury’s verdict of infringement on this
limitation.
At trial, VirnetX presented evidence and
testimony to the jury that ‘‘the virtual
private network extend[s] from the client
computer to the target computer TTT because it’s encrypted on the insecure paths,
and it’s secure within the corporate network.’’ J.A. 1400–01. VirnetX’s expert
testified that one of ordinary skill would
understand that the path extending from
the VPN server to the target computer,
i.e., within the private network, would be

1321

secure and anonymous owing to protection
provided by the private network. J.A.
1080 (‘‘That network is secure, because it’s
been physically secured; and it also has
what’s called a firewall between its network and the public network. So it keeps
the bad guys out.’’); J.A. 1379 (‘‘If that’s a
private network of the company that
they’ve set up behind a VPN server, the
company would have configured that to be
secure.’’); J.A. 1396 (‘‘[T]hese are TTT private networks that are not to be accessed
by others. They require authorization for
access.’’). The jury also heard testimony
that while in some situations traffic could
be unsecured behind the VPN server, J.A.
1997–98, this scenario would be ‘‘atypical.’’
J.A.1992–93. For example, VirnetX presented evidence to the jury that Apple
itself advertised that VPN On Demand is
designed to connect with ‘‘private corporate networks’’ and ‘‘works with a variety
of authentication methods.’’ J.A. 20001.
And, more to the point, the jury heard that
the ‘‘private corporate networks’’ to which
VPN On Demand is intended to connect
employ security measures including VPN
servers, VPN authentication servers,
proxy servers, and firewalls which regulate
access to private resources and prevent
unauthorized users from breaching. J.A.
1080, 1379, 1401.
Apple argues that this finding of infringement necessarily rests on a series of
‘‘assumptions’’ about how all private networks operate in order to conclude that
VPN On Demand is ‘‘typically’’ configured
to operate in the manner accused of infringement. Appellant’s Br. 30–31. However, VirnetX’s expert relied on Apple’s
own internal technical documentation,
product specifications, and marketing presentations, several of which describe specific security measures used by the private
networks to which VPN On Demand is
intended to connect. This evidence dem-

1322

767 FEDERAL REPORTER, 3d SERIES

onstrates not only that VPN On Demand
may be configured to interact with private
networks, but that this was apparently Apple’s primary objective. Apple would have
VirnetX prove that VPN On Demand has
no non-infringing modes of operation.
But, as noted above, VirnetX bears no
such burden. See supra at 1320–21; see
also z4 Techs., Inc. v. Microsoft Corp., 507
F.3d 1340, 1350 (Fed.Cir.2007) (‘‘[I]nfringement is not avoided merely because
a non-infringing mode of operation is possible.’’). We cannot agree that the jury’s
finding lacks substantial evidence because
VirnetX did not specifically disprove that
VPN On Demand can, in atypical situations, establish a VPN with insecure networks.
Apple also responds that this evidence is
insufficient because VirnetX’s expert testified that VPN On Demand only encrypts
communications between the iPhone and
the VPN server—by implication leaving
the path from the VPN server to the target unencrypted.
Appellant’s Br. 29
(quoting J.A. 1392). However, the district
court’s construction of ‘‘VPN’’ does not
require that traffic on a secure path be
encrypted. Rather, the construction only
requires encryption of traffic ‘‘on insecure
paths.’’ Claim Construction Order at 8.
Moreover, as indicated by the 8135 patent,
encryption is just one possible way to address data security. 8135 patent col. 1 ll.
38–39 (‘‘Data security is usually tackled
using some form of data encryption.’’ (emphasis added)). And VirnetX provided
substantial evidence for the jury to conclude that paths beyond the VPN server
may be rendered secure and anonymous
by means of ‘‘physical security’’ present in
the private corporate networks connected
to by VPN On Demand. See, e.g., J.A.
1401.
Accordingly, we conclude that the jury’s
finding that the VPN On Demand feature

creates a ‘‘VPN’’ or a ‘‘secure channel’’
that extends from the client to the target
computer was supported by substantial evidence. We therefore affirm the district
court’s denial of JMOL as to claim 1 of the
8135 patent and claim 13 of the 8151 patent.
b.

Infringement of Claim 1 of the 8151
Patent Under the Doctrine of
Equivalents

[12] Claim 1 of the 8151 patent is similar to claim 13 except that it requires
initiating an ‘‘encrypted channel’’—rather
than a ‘‘secure channel’’—‘‘between’’ the
client and the secure server. 8151 patent
col. 46 ll. 66–67. With respect to infringement, VirnetX conceded that VPN On Demand does not literally practice this limitation because the private network between
the VPN server and the target is ‘‘not
necessarily encrypted’’ from end to end.
J.A. 1420–21. Rather, VirnetX asserted
that VPN On Demand infringes under the
doctrine of equivalents because the difference between secure communication via
encryption and secure communication in
general is insubstantial. J.A. 1421–24.
Apple argues that VirnetX’s theory of
equivalents is legally insufficient because it
vitiates the ‘‘encrypted channel’’ element.
Appellant’s Br. 32–33.
[13–15] To find infringement under the
doctrine of equivalents, any differences between the claimed invention and the accused product must be insubstantial. See
Graver Tank & Mfg. Co. v. Linde Air
Prods. Co., 339 U.S. 605, 608, 70 S.Ct. 854,
94 L.Ed. 1097 (1950). Insubstantiality
may be determined by whether the accused device performs substantially the
same function in substantially the same
way to obtain substantially the same result
as the claim limitation. Crown Packaging
Tech., Inc. v. Rexam Beverage Can Co.,
559 F.3d 1308, 1312 (Fed.Cir.2009). This
is a question of fact. Anchor Wall Sys.,

VIRNETX, INC. v. CISCO SYSTEMS, INC.
Cite as 767 F.3d 1308 (Fed. Cir. 2014)

Inc. v. Rockwood Retaining Walls, Inc.,
340 F.3d 1298, 1313 (Fed.Cir.2003). Vitiation is not an exception to the doctrine of
equivalents. Deere & Co. v. Bush Hog,
LLC, 703 F.3d 1349, 1356 (Fed.Cir.2012).
Rather, it is a legal determination that
‘‘the evidence is such that no reasonable
jury could determine two elements to be
equivalent.’’ Id. (citation omitted).
After considering the record as a whole,
we conclude that the evidence presented at
trial does not support the jury’s finding of
infringement under the doctrine of equivalents. VirnetX’s expert testified that VPN
On Demand (a) performs substantially the
same function because it secures the communication between the client and the secure server, (b) does so in substantially the
same way by protecting data through encryption on insecure paths that are vulnerable to eavesdroppers, and (c) achieves
substantially the same result of successfully protecting the entire communication
path from potential eavesdroppers. See
J.A. 1424.
Notably, in explaining the ‘‘way’’ that
VPN On Demand secures communications,
the expert did not testify that VPN On
Demand provides encryption on the allegedly secure pathway between the VPN
server and the private network, but only
on the insecure portion of the pathway.
Thus, his testimony effectively equates the
‘‘security’’ of the private network with the
‘‘encryption’’ provided by the VPN server.
But the patent consistently differentiates
between ‘‘security’’ and ‘‘encryption.’’
Both the claims and the specification of the
8151 patent make clear that encryption is a
narrower, more specific requirement than
security. For example, the specification
states that encryption is just one possible
way to address data security. 8151 patent
col. 1 ll. 49–50 (‘‘Data security is usually
tackled using some form of data encryption.’’ (emphasis added)). Additionally,

1323

one of the primary differences between the
steps performed in claim 1 of the 8151
patent and the steps performed in claim 13
is that claim 13 requires creating a ‘‘secure’’ channel, while claim 1 specifically
requires that the channel be ‘‘encrypted.’’
In light of these distinctions in the patent itself, the jury’s implicit finding that
VPN On Demand achieves the result of
protecting communications from eavesdropping in ‘‘substantially the same way’’
as contemplated by the ‘‘encrypted channel’’ claim limitation was not supported by
VirnetX’s expert’s testimony. See Crown
Packaging, 559 F.3d at 1312. No reasonable jury could have determined that the
security provided by the VPN On Demand
system—which includes encryption on the
insecure paths but otherwise relies on the
security provided by private networks—is
equivalent to the ‘‘encrypted channel’’ required by claim 1 of the 8151 patent. The
district court’s denial of JMOL as to that
claim must therefore be reversed.
III.

Invalidity

[16–18] A party challenging the validity of a patent must establish invalidity by
clear and convincing evidence. See Microsoft Corp. v. i4i Ltd. P’ship, ––– U.S. ––––,
131 S.Ct. 2238, 2242, 180 L.Ed.2d 131
(2011). Anticipation is a factual question
that we review for substantial evidence.
SynQor, Inc. v. Artesyn Techs., Inc., 709
F.3d 1365, 1373 (Fed.Cir.2013). A claim is
anticipated only if each and every element
is found within a single prior art reference,
arranged as claimed. See Net MoneyIN,
Inc. v. VeriSign, Inc., 545 F.3d 1359, 1369
(Fed.Cir.2008).
[19] Apple argues that the asserted
claims are anticipated by the Kiuchi reference. However, we conclude that the jury
heard substantial evidence that at least
one element of each asserted claim was
missing from that reference. With respect

1324

767 FEDERAL REPORTER, 3d SERIES

to the 8135, 8504, and 8211 patents, the jury
heard evidence that Kiuchi’s proxy servers
at least do not teach ‘‘direct communication’’ between a client and target computer, which is sufficient to defeat a claim of
anticipation. J.A. 2343–44. Specifically,
the jury heard expert testimony that Kiuchi’s client-side and server-side proxies
terminate the connection, process information, and create a new connection—actions
that are not ‘‘direct’’ within the meaning of
the asserted claims. J.A. 2334–35. VirnetX distinguished such proxy activities
from the operation of NAT routers
which—unlike proxy servers in the prior
art-do not terminate the connection.
Additionally, with respect to the 8151
patent, there was substantial evidence to
support VirnetX’s argument that Kiuchi
fails to disclose the requirement that the
DNS request be ‘‘sent by a client.’’ 8151
patent col. 46 l. 57. Apple argued that the
‘‘client-side proxy’’ of Kiuchi meets the
‘‘client’’ limitation, but there was evidence
that the ‘‘client’’ of Kiuchi is actually a web
browser, a component that is distinguishable from the client-side proxy. See J.A.
2341. Thus, the district court did not err
in denying Apple’s JMOL motion with respect to invalidity.
IV.

Exclusion of Evidence

[20] At trial, to prove induced infringement, VirnetX attempted to show that Apple knew or was willfully blind to the fact
that its customers’ use of its products
would infringe valid patent claims. In defense, Apple sought to inform the jury
that, after learning of VirnetX’s allegations, Apple initiated reexaminations
against the asserted patents. Apple’s requests for reexamination resulted in initial
rejections of the asserted claims at the
United States Patent and Trademark Office (‘‘PTO’’). Apple offered these rejections as evidence of Apple’s reasonably-

held belief that the patents were invalid.
The district court, however, excluded this
proffer, concluding that such non-final actions in pending reexaminations would be
‘‘highly prejudicial evidence that risks misleading the jury.’’ VirnetX, 925 F.Supp.2d
at 842.
[21, 22] We apply regional circuit law
to evidentiary issues. The Fifth Circuit
reviews a district court’s exclusion of evidence under Federal Rule of Evidence 403
for ‘‘clear abuse of discretion’’ resulting in
substantial prejudice. Wellogix, Inc. v.
Accenture, L.L.P., 716 F.3d 867, 882 (5th
Cir.2013). In this case, we cannot say that
the district court abused its discretion in
excluding this evidence.
Apple asserts that the rejections are
relevant because they establish its good
faith belief that the asserted claims are
invalid, thereby negating the requisite intent for inducement. Appellant’s Br. 50
(citing Commil USA, LLC v. Cisco Sys.,
Inc., 720 F.3d 1361, 1368–69 (Fed.Cir.
2013)). As an initial matter, we note that
this court’s precedent has often warned of
the limited value of actions by the PTO
when used for such purposes. See, e.g.,
Hoechst Celanese Corp. v. BP Chems. Ltd.,
78 F.3d 1575, 1584 (Fed.Cir.1996) (‘‘[G]rant
by the examiner of a request for reexamination is not probative of unpatentability.’’); Acoustical Design, Inc. v. Control
Elecs. Co., 932 F.2d 939, 942 (Fed.Cir.
1991) (‘‘[I]nitial rejection by the [PTO] TTT
hardly justifies a good faith belief in the
invalidity of the claims.’’). However, in
this case we need not decide whether our
opinion in Commil justifies reliance on reexamination evidence to establish a good
faith belief of invalidity. Instead, we conclude that, regardless of the evidence’s
relevance to a fact at issue at trial, the
district court would still not have abused
its discretion in finding that the probative
value was substantially outweighed by the

VIRNETX, INC. v. CISCO SYSTEMS, INC.
Cite as 767 F.3d 1308 (Fed. Cir. 2014)

risk of unfair prejudice to the patentee,
confusion with invalidity (on the merits), or
misleading the jury, thereby justifying exclusion under Federal Rule of Evidence
403. See, e.g., SynQor, 709 F.3d at 1380
(finding no abuse of discretion for excluding non-final reexamination evidence as being ‘‘confusing and more prejudicial than
probative’’); Callaway Golf Co. v. Acushnet Co., 576 F.3d 1331, 1342–43 (Fed.Cir.
2009) (finding the probative value of a
copending reexamination marginal and the
effect likely to be highly prejudicial).
Thus, we affirm the district court’s exclusion of this evidence.
V.

Damages

[23] At trial, VirnetX’s damages expert, Mr. Roy Weinstein, provided three
reasonable royalty theories, which the district court admitted over Apple’s challenges under Daubert v. Merrell Dow
Pharmaceuticals, Inc., 509 U.S. 579, 113
S.Ct. 2786, 125 L.Ed.2d 469 (1993).
Weinstein’s first approach began with
the lowest sale price of each model of the
accused iOS devices containing the accused
features. J.A. 1616–23. Weinstein then
applied a 1% royalty rate to the base,
derived from a VirnetX policy of seeking
to license its patents for at least 1–2% of
the entire value of products sold and several allegedly comparable licenses. J.A.
1595, 1613–14. This theory yielded a $708
million demand, consisting of $566 million
for products including both FaceTime and
VPN On Demand, and $142 million for
those including only VPN On Demand.
J.A. 1622–24, 1644.
Weinstein also offered a second damages
theory, regarding FaceTime alone, relying
on a mathematical theorem proved by
John Nash, a mathematician who proved a
number of results in game theory that
have become important in economics and
other fields. J.A. 1628–29. Nash was a

1325

co-winner of the 1994 Nobel Prize in Economics for some of this work, though not
the theorem at issue here—published as
‘‘The Bargaining Problem’’ in 18 Econometrica 155–62 (Apr.1950). Like other mathematical theorems, this theorem states a
number of premises and establishes a conclusion that follows from those premises.
In particular, under the conditions stated
in the premises, where two persons bargain over a matter, there is a ‘‘solution’’ to
the negotiation problem satisfying stated
conditions on a desirable result (bargain).
That solution—in which ‘‘each bargainer
get[s] the same money profit,’’ id. at 162—
has come to be called the Nash Bargaining
Solution.
Weinstein, invoking the Nash Bargaining Solution, testified that ‘‘the parties
[would have] split between themselves the
incremental or additional profits that are
associated with the use of the patented
technology.’’ J.A. 1630. Weinstein derived the profits associated with FaceTime
from the revenue generated by the addition of a ‘‘front-facing’’ camera on Apple’s
mobile devices. Without examining the
applicability to this case of all the preconditions for the Nash Bargaining Solution,
he invoked the Solution as suggesting a
50/50 split of those profits, and then modified that result by 10%, explaining that
VirnetX would have received only 45% of
the profit because of its weaker bargaining
position, leaving 55% for Apple. J.A. 1633,
1709. This calculation amounted to $588
million in damages for infringement by
FaceTime. J.A. 1633–38.
Finally, Weinstein offered yet another
theory for FaceTime, again relying on the
Nash Bargaining Solution. This time, he
claimed that FaceTime ‘‘drove sales’’ for
Apple iOS products. J.A. 1639. Weinstein extrapolated from a customer survey
to assert that 18% of all iOS device sales
would not have occurred without the addi-

1326

767 FEDERAL REPORTER, 3d SERIES

tion of FaceTime. J.A. 1641. From that
figure, he determined the amount of Apple’s profits that he believed were attributable to the FaceTime feature, and apportioned 45% of the profits to VirnetX,
consistent with his previous application of
the Nash theory. Using this approach,
Weinstein arrived at damages of $5.13 per
unit, totaling $606 million in damages for
FaceTime. J.A. 1643.
Ultimately, the jury awarded VirnetX
$368 million in damages. Apple now challenges each of Weinstein’s damages theories, as well as the district court’s jury
instruction on damages. For the reasons
stated below, we vacate the jury’s damages
award and remand for further proceedings
consistent with this opinion.
A.

Jury Instruction

[24, 25] Upon a finding of infringement, ‘‘the court shall award the claimant
damages adequate to compensate for the
infringement, but in no event less than a
reasonable royalty for the use made of the
invention by the infringer.’’ 35 U.S.C.
§ 284. The most common method for determining a reasonable royalty is the hypothetical negotiation approach, which ‘‘attempts to ascertain the royalty upon which
the parties would have agreed had they
successfully negotiated an agreement just
before infringement began.’’
Lucent
Techs., Inc. v. Gateway, Inc., 580 F.3d
1301, 1324 (Fed.Cir.2009). A reasonable
royalty may be a lump-sum payment not
calculated on a per unit basis, but it may
also be, and often is, a running payment
that varies with the number of infringing
units. In that event, it generally has two
prongs: a royalty base and a royalty rate.
[26] No matter what the form of the
royalty, a patentee must take care to seek
only those damages attributable to the infringing features. Indeed, the Supreme
Court long ago observed that a patentee

must in every case give evidence tending
to separate or apportion the defendant’s
profits and the patentee’s damages between the patented feature and the unpatented features, and such evidence
must be reliable and tangible, and not
conjectural or speculative; or he must
show, by equally reliable and satisfactory evidence, that the profits and damages are to be calculated on the whole
machine, for the reason that the entire
value of the whole machine, as a marketable article, is properly and legally attributable to the patented feature.
Garretson v. Clark, 111 U.S. 120, 121, 4
S.Ct. 291, 28 L.Ed. 371 (1884).
[27] Thus, when claims are drawn to
an individual component of a multi-component product, it is the exception, not the
rule, that damages may be based upon the
value of the multi-component product.
LaserDynamics, Inc. v. Quanta Computer,
Inc., 694 F.3d 51, 67–68 (Fed.Cir.2012).
Indeed, we recently reaffirmed that ‘‘[a]
patentee may assess damages based on the
entire market value of the accused product
only where the patented feature creates
the basis for customer demand or substantially creates the value of the component
parts.’’ Versata Software, Inc. v. SAP
Am., Inc., 717 F.3d 1255, 1268 (Fed.Cir.
2013) (emphasis added) (quoting SynQor,
709 F.3d at 1383). In the absence of such
a showing, principles of apportionment apply.
These strict requirements limiting the
entire market value exception ensure that
a reasonable royalty ‘‘does not overreach
and encompass components not covered by
the patent.’’ LaserDynamics, 694 F.3d at
70; see also Garretson, 111 U.S. at 121, 4
S.Ct. 291 (‘‘[T]he patentee must show in
what particulars his improvement has added to the usefulness of the machine or
contrivance.’’). Thus, ‘‘[i]t is not enough to

VIRNETX, INC. v. CISCO SYSTEMS, INC.
Cite as 767 F.3d 1308 (Fed. Cir. 2014)

merely show that the [patented feature] is
viewed as valuable, important, or even essential to the use of the [overall product].’’
LaserDynamics, 694 F.3d at 68. Instead,
this court has consistently held that ‘‘a
reasonable royalty analysis requires a
court to TTT carefully tie proof of damages
to the claimed invention’s footprint in the
market place.’’ ResQNet.com, Inc. v. Lansa, Inc., 594 F.3d 860, 869 (Fed.Cir.2010);
see also Cornell Univ. v. Hewlett–Packard
Co., 609 F.Supp.2d 279, 285 (N.D.N.Y.
2009) (‘‘The entire market value rule indeed permits damages on technology beyond the scope of the claimed invention,
but only upon proof that damages on the
unpatented components or technology is
necessary to fully compensate for infringement of the patented invention.’’). Additionally, we have also cautioned against
reliance on the entire market value of the
accused products because it ‘‘cannot help
but skew the damages horizon for the jury,
regardless of the contribution of the patented component to this revenue.’’ Uniloc
USA, Inc. v. Microsoft Corp., 632 F.3d
1292, 1320 (Fed.Cir.2011).
Apple argues that the district court misstated this law on the entire market value
rule in its jury instruction. The district
court instructed the jury as follows:
In determining a royalty base, you
should not use the value of the entire
apparatus or product unless either: (1)
the patented feature creates the basis
for the customers’ demand for the product, or the patented feature substantially
creates the value of the other component
parts of the product; or (2) the product
in question constitutes the smallest saleable unit containing the patented feature.
J.A. 2515–16. Apple argues that this instruction inappropriately created a second
exception that would allow a patentee to
rely on the entire market value of a multi-

1327

component product so long as that product
is the smallest salable unit containing the
patented feature.
We agree with Apple that the district
court’s instruction misstates our law. To
be sure, we have previously permitted patentees to base royalties on the ‘‘smallest
salable patent-practicing unit.’’ LaserDynamics, 694 F.3d at 67. However, the
instruction mistakenly suggests that when
the smallest salable unit is used as the
royalty base, there is necessarily no further constraint on the selection of the
base. That is wrong. For one thing, the
fundamental concern about skewing the
damages horizon—of using a base that
misleadingly suggests an inappropriate
range—does not disappear simply because
the smallest salable unit is used.
Moreover, the smallest salable unit approach was intended to produce a royalty
base much more closely tied to the
claimed invention than the entire market
value of the accused products. Indeed,
that language first arose in the Cornell
case, where the district court noted that,
rather than pursuing a ‘‘royalty base claim
encompassing a product with significant
non-infringing components,’’ the patentee
should have based its damages on ‘‘the
smallest salable infringing unit with close
relation to the claimed invention.’’ 609
F.Supp.2d at 287–88 (emphasis added).
In other words, the requirement that a
patentee identify damages associated with
the smallest salable patent-practicing unit
is simply a step toward meeting the requirement of apportionment. Where the
smallest salable unit is, in fact, a multicomponent product containing several noninfringing features with no relation to the
patented feature (as VirnetX claims it was
here), the patentee must do more to estimate what portion of the value of that
product is attributable to the patented
technology. To hold otherwise would per-

1328

767 FEDERAL REPORTER, 3d SERIES

mit the entire market value exception to
swallow the rule of apportionment.2
[28] In reaching this conclusion, we
are cognizant of the difficulty that patentees may face in assigning value to a feature that may not have ever been individually sold. However, we note that we have
never required absolute precision in this
task; on the contrary, it is well-understood
that this process may involve some degree
of approximation and uncertainty. See
generally Unisplay, S.A. v. Am. Elec. Sign
Co., 69 F.3d 512, 517 (Fed.Cir.1995).
We conclude that the district court’s
jury instruction regarding the entire market value rule was legally erroneous.
Moreover, that error cannot be considered
harmless, as VirnetX’s expert relied on the
entire value of the iOS devices as the
‘‘smallest salable units,’’ without attempting to apportion the value attributable to
the VPN On Demand and FaceTime features. Thus, it is clear that the jury’s
verdict was tainted by the erroneous jury
instruction.
B.

Weinstein’s First Approach:
Royalty Base

[29] In addition to the erroneous jury
instruction, Apple argues that the testimony of VirnetX’s expert on the proper royalty base should have been excluded because
it relied on the entire market value of
Apple’s products without demonstrating
that the patented features drove the demand for those products. For similar reasons to those stated above, we agree.
[30–32] The admissibility of expert testimony is governed by the Federal Rules
of Evidence and the principles laid out in
Daubert v. Merrell Dow Pharmaceuticals,
Inc., 509 U.S. 579, 113 S.Ct. 2786, 125
2.

As, indeed, it did in this case, where VirnetX
effectively relied on the entire market value of
the iOS devices without showing that the pat-

L.Ed.2d 469 (1993). The district court’s
‘‘gatekeeping obligation’’ applies to all
types of expert testimony. Kumho Tire
Co. v. Carmichael, 526 U.S. 137, 147, 119
S.Ct. 1167, 143 L.Ed.2d 238 (1999). While
questions regarding which facts are most
relevant for calculating a reasonable royalty are properly left to the jury, a critical
prerequisite is that the underlying methodology be sound. Here, it was not, and
the district court should have exercised its
gatekeeping authority to ensure that only
theories comporting with settled principles
of apportionment were allowed to reach
the jury.
Under Weinstein’s first damages theory,
he undisputedly based his calculations on
the entire cost of the iOS devices, ranging
in value from $199 for the iPod Touch to
$649 for the iPhone 4S. Weinstein used the
base price at which each product was sold,
excluding only charges for additional memory sold separately. He called this the
smallest salable unit. However, when
asked whether this ‘‘remove[d] features
that aren’t accused in this case,’’ Weinstein
answered as follows:
To the extent that the products that
we’re talking about here contain additional features, like additional memory,
for instance, that Apple was charging
for, by using the lowest saleable unit,
I’m doing as much as I can to remove
payments for those featuresTTTT
J.A. 1620 (emphasis added). This testimony confirms that Weinstein did not even
attempt to subtract any other unpatented
elements from the base, which therefore
included various features indisputably not
claimed by VirnetX, e.g., touchscreen,
camera, processor, speaker, and microphone, to name but a few. J.A. 1143–44.
ented features drove demand for those devices, simply by asserting that they were the
smallest salable units.

VIRNETX, INC. v. CISCO SYSTEMS, INC.
Cite as 767 F.3d 1308 (Fed. Cir. 2014)

VirnetX defends Weinstein’s approach
by insisting that ‘‘software creates the
largest share of the product’s value’’ for
these popular iOS products. Appellee’s
Br. 60. But this misses the point. Whether ‘‘viewed as valuable, important, or even
essential,’’ the patented feature must be
separated. LaserDynamics, 694 F.3d at
68. Weinstein made no attempt to separate software from hardware, much less to
separate the FaceTime software from other valuable software components.
[33] Indeed, the record supports Apple’s contention that Weinstein could have
apportioned a smaller per unit figure for
FaceTime; namely, for the use of FaceTime on Mac computers he used a royalty
base of $29—the cost of the software upgrade. J.A. 1619. And he used an even
lower estimate to represent the patentable
contributions to iOS devices in his application of the Nash Bargaining Solution, calculating incremental revenues due to FaceTime at $15 per iOS device. J.A. 1634–36.
The only reason Weinstein gave for not
using the $29 as the base for other iOS
products was that Apple does not actually
charge separately for FaceTime on those
devices. J.A. 1673–74. But, as explained
above, a patentee’s obligation to apportion
damages only to the patented features
does not end with the identification of the
smallest salable unit if that unit still contains significant unpatented features.3
[34] Thus, VirnetX cannot simply hide
behind Apple’s sales model to avoid the
task of apportionment. This court rejects
the excuse that ‘‘practical and economic
necessity compelled [the patentee] to base
its royalty on the price of an entire [device].’’ LaserDynamics, 694 F.3d at 69.
There is no ‘‘necessity-based exception to
the entire market value rule.’’ Id. at 70.
3.

Because Apple has not challenged it, we
offer no opinion on whether the $29 software
upgrade is itself so closely related to the pat-

1329

On the contrary, a patentee must be reasonable (though may be approximate)
when seeking to identify a patent-practicing unit, tangible or intangible, with a
close relation to the patented feature.
[35] In the end, VirnetX should have
identified a patent-practicing feature with
a sufficiently close relation to the claimed
functionality. The law requires patentees
to apportion the royalty down to a reasonable estimate of the value of its claimed
technology, or else establish that its patented technology drove demand for the
entire product. VirnetX did neither. As
we noted in LaserDynamics:
Whether called ‘‘product value apportionment’’ or anything else, the fact remains that the royalty was expressly
calculated as a percentage of the entire
market value of a [multi-component
product] rather than a patent-practicing
[component] alone. This, by definition,
is an application of the entire market
value rule.
Id. at 68. In calculating the royalty base,
Weinstein did not even try to link demand
for the accused device to the patented
feature, and failed to apportion value between the patented features and the vast
number of non-patented features contained
in the accused products. Because Weinstein did not ‘‘carefully tie proof of damages to the claimed invention’s footprint in
the market place,’’ Uniloc, 632 F.3d at
1317 (quoting ResQNet, 594 F.3d at 869),
his testimony on the royalty base under
this approach was inadmissible and should
have been excluded.
C.

Weinstein’s First Approach:
Royalty Rate

[36] In addition to challenging Weinstein’s testimony with respect to the royalented feature that VirnetX may rely on its
entire value in determining the proper royalty
base for the FaceTime feature.

1330

767 FEDERAL REPORTER, 3d SERIES

ty base, Apple argues that his testimony
with respect to the royalty rate should also
have been excluded.
After determining the royalty base,
Weinstein applied a 1% royalty rate, based
on six allegedly comparable licenses, as
well as his understanding that VirnetX had
a ‘‘policy’’ of licensing its patents for 1–2%.
Apple argues that the licenses on which
Weinstein relied were not sufficiently comparable to the license that would have
resulted from the hypothetical negotiation.
In particular, Apple points out that two of
the licenses predated the patents-in-suit.
Both of those agreements related to technology leading to the claimed invention,
and one contained a software license in
addition to a license for various patent
applications. Apple further complains that
three of the other licenses were entered
into in 2012, a full three years after the
date of the ‘‘hypothetical negotiation,’’ set
in June 2009. Apple argues that at the
time those licenses were entered into, VirnetX was in a much better financial position (and therefore a better bargaining
position) than it was in 2009. Finally,
Apple notes that the sixth license covered
sixty-eight VirnetX patents, and was
therefore much broader than the license to
four patents Apple would be seeking in the
hypothetical negotiation. It also equated
to a 0.24% royalty rate, which is significantly lower than the 1–2% rate Weinstein
testified VirnetX would accept.
[37] We have held that in attempting
to establish a reasonable royalty, the ‘‘licenses relied on by the patentee in proving
damages [must be] sufficiently comparable
to the hypothetical license at issue in suit.’’
Lucent, 580 F.3d at 1325. ‘‘When relying
on licenses to prove a reasonable royalty,
alleging a loose or vague comparability
between different technologies or licenses
does not suffice.’’ LaserDynamics, 694
F.3d at 79. However, we have never re-

quired identity of circumstances; on the
contrary, we have long acknowledged that
‘‘any reasonable royalty analysis ‘necessarily involves an element of approximation
and uncertainty.’ ’’ Lucent, 580 F.3d at
1325 (quoting Unisplay, 69 F.3d at 517).
Thus, we have cautioned that ‘‘district
courts performing reasonable royalty calculations [must] exercise vigilance when
considering past licenses to technologies
other than the patent in suit,’’ ResQNet,
594 F.3d at 869, and ‘‘must account for
differences in the technologies and economic circumstances of the contracting
parties,’’ Finjan, Inc. v. Secure Computing
Corp., 626 F.3d 1197, 1211 (Fed.Cir.2010).
With those principles in mind, we conclude that the district court here did not
abuse its discretion in permitting Weinstein to rely on the six challenged licenses.
To begin with, four of those licenses did
indeed relate to the actual patents-in-suit,
while the others were drawn to related
technology. Moreover, all of the other
differences that Apple complains of were
presented to the jury, allowing the jury to
fully evaluate the relevance of the licenses.
See J.A. 1600, 1650, 1678–82. No more is
required in these circumstances.
Our case law does not compel a contrary
result. In ResQNet, we faulted the district court for relying on licenses with ‘‘no
relationship to the claimed invention,’’ nor
even a ‘‘discernible link to the claimed
technology.’’ 594 F.3d at 870. And in
Lucent, we rejected reliance on licenses
from ‘‘vastly different situation[s]’’ or
where the subject matter of certain agreements was not even ascertainable from the
evidence presented at trial. 580 F.3d at
1327–28. The licenses in this case—
though not immune from challenge—bear
a closer relationship to the hypothetical
negotiation that would have occurred.
This case is therefore much more akin to
the circumstances in Finjan and ActiveVi-

VIRNETX, INC. v. CISCO SYSTEMS, INC.
Cite as 767 F.3d 1308 (Fed. Cir. 2014)

deo Networks, Inc. v. Verizon Communications, Inc., 694 F.3d 1312 (Fed.Cir.2012).
In Finjan, there were several differences
between the single license relied upon and
the hypothetical negotiation, most notably
that Finjan did not compete with the licensee as it did with the defendant in the
case, and that the license involved a lump
sum rather than a running royalty. 626
F.3d at 1212. Nevertheless, we affirmed
the damages award based on that license
because ‘‘[those] differences permitted the
jury to properly discount the TTT license.’’
Id. And in ActiveVideo, the damages expert relied on two agreements, one of
which post-dated the hypothetical negotiations by two years, did not involve the
patents-in-suit, and did not cover the technologies in the case, while the other agreement covered both patents and software
services. 694 F.3d at 1333. Nevertheless,
we concluded that the ‘‘degree of comparability’’ of the license agreements was ‘‘[a]
factual issue[ ] best addressed by cross
examination and not by exclusion.’’ Id.
Similarly, here, though there were undoubtedly differences between the licenses
at issue and the circumstances of the hypothetical negotiation, ‘‘[t]he jury was entitled to hear the expert testimony and decide for itself what to accept or reject.’’ i4i
Ltd. P’ship v. Microsoft Corp., 598 F.3d
831, 856 (Fed.Cir.2010), aff’d ––– U.S.
––––, 131 S.Ct. 2238, 180 L.Ed.2d 131
(2011).
Thus, we do not believe the district
court abused its discretion by permitting
Weinstein’s testimony regarding the proper royalty rate based on these allegedly
comparable licenses.
D. Weinstein’s Second and
Third Approaches: Nash
Bargaining Solution
[38] Weinstein also offered two other
estimates of the damages attributable to

1331

the FaceTime feature. Both of these estimates relied on the Nash Bargaining Solution. Weinstein began by determining ‘‘incremental or additional profits that are
associated with the use of the patented
technology.’’ J.A. 1630. Weinstein used
two different methods to estimate the incremental profits associated with the FaceTime feature. First, he used the frontfacing camera as a proxy for the FaceTime
feature, and calculated the profits that he
believed were attributable to the addition
of the front-facing camera to certain Apple
products. And second, he relied on customer surveys to assert that 18% of iOS
device sales would not have occurred but
for the inclusion of FaceTime, and determined the profits attributable to those
sales.
Having thus purported to determine
those profits, Weinstein then testified
about how the parties would split those
incremental profits. To do this, he began
with the assumption that each party would
take 50% of the incremental profits, invoking the Nash Bargaining Solution, and
then adjusted that split based on ‘‘the relative bargaining power of the two entities.’’
J.A. 1632.
Apple challenges both steps of Weinstein’s analysis. First, Apple insists that
Weinstein did not adequately isolate the
incremental profits attributable to the patented technology under either approach.
And second, Apple argues that the invocation of a 50/50 starting point based on the
Nash Bargaining Solution is akin to the
‘‘25 percent rule of thumb’’ that we rejected in Uniloc as being insufficiently
grounded in the specific facts of the case.
Because we agree with Apple on the second point, we need not reach the first.
In recent years, numerous district
courts have confronted experts’ invocations
of the Nash Bargaining Solution as a model for reasonable royalty damages, with

1332

767 FEDERAL REPORTER, 3d SERIES

varying results. Compare Robocast, Inc.
v. Microsoft Corp., No. 10–1055, 2014 WL
350062 (D.Del. Jan. 29, 2014) (excluding
expert testimony based on Nash Bargaining Solution because it was not sufficiently
tied to the facts of the case); Dynetix
Design Solutions, Inc. v. Synopsys, Inc.,
No. 11–5973, 2013 WL 4538210, at *4–5
(N.D.Cal. Aug. 22, 2013) (excluding expert
testimony on royalty rate that began from
a starting point of a 50/50 split because the
expert’s methodology was ‘‘indistinguishable from 25% rule’’); Oracle Am., Inc. v.
Google Inc., 798 F.Supp.2d 1111, 1119–21
(N.D.Cal.2011) (excluding testimony based
on Nash Bargaining Solution because it
‘‘would invite a miscarriage of justice by
clothing a fifty-percent assumption in an
impenetrable façade of mathematics’’) with
Mformation Techs., Inc. v. Research in
Motion Ltd., No. 08–4990, 2012 WL
1142537, at *3 n. 19 (N.D.Cal. Mar. 29,
2012) (declining to exclude Weinstein’s testimony based on Nash Bargaining Solution
because he used it only ‘‘as a check’’ in
addition to the Georgia–Pacific analysis,
rather than in lieu of it); Gen–Probe Inc.
v. Becton Dickinson & Co., No. 09–2319,
2012 WL 9335913, at *3 (S.D.Cal. Nov. 26,
2012) (permitting testimony based on Nash
Bargaining Solution because calculation
was sufficiently tied to the facts of the
case, ‘‘including the competitive environment and Gen–Probe’s policy of exploiting
its
own
patents’’);
Sanofi–Aventis
Deutschland Gmbh v. Glenmark Pharms.
Inc., USA, No. 07–5855, 2011 WL 383861,
at *12–13 (D.N.J. Feb. 3, 2011) (determining that expert’s testimony asserting a
50/50 profit split was based on the specific
facts of the case); Amakua Dev. LLC v.
Warner, No. 05–3082, 2007 WL 2028186, at
*20 (N.D.Ill. July 10, 2007) (permitting
reliance on Nash because the ‘‘[d]efendants ha[d] not challenged the reliability of
Nash’s theories, and the assessment of
whether the theory persuasively can be

applied in the context of this case is for the
jury’’).
For the reasons that follow, we agree
with the courts that have rejected invocations of the Nash theorem without sufficiently establishing that the premises of
the theorem actually apply to the facts of
the case at hand. The use here was just
such an inappropriate ‘‘rule of thumb.’’
Previously, damages experts often relied
on the ‘‘25 percent rule of thumb’’ in determining a reasonable royalty rate in a
hypothetical negotiation. That rule hypothesized that 25% of the value of the infringing product would remain with the
patentee, while the remaining 75% would
go to the licensee. In Uniloc, however, we
held the ‘‘25 percent rule of thumb’’ to be
inadmissible ‘‘because it fails to tie a reasonable royalty base to the facts of the
case at issue.’’ 632 F.3d at 1315. In so
doing, we noted that the rule did not differentiate between different industries,
technologies, or parties. Id. at 1317.
Rather, it assumed the same 25/75 royalty
split regardless of the size of the patent
portfolio in question or the value of the
patented technology. Id. The problem
was that the 25% rule made too crude a
generalization about a vastly more complicated world.
The problem with Weinstein’s use of the
Nash Bargaining Solution, though somewhat different, is related, and just as fatal
to the soundness of the testimony. The
Nash theorem arrives at a result that follows from a certain set of premises. It
itself asserts nothing about what situations
in the real world fit those premises. Anyone seeking to invoke the theorem as applicable to a particular situation must establish that fit, because the 50/50 profitsplit result is proven by the theorem only
on those premises. Weinstein did not do
so. This was an essential failing in invoking the Solution. Moreover, we do not

VIRNETX, INC. v. CISCO SYSTEMS, INC.
Cite as 767 F.3d 1308 (Fed. Cir. 2014)

believe that the reliability of this methodology is saved by Weinstein’s attempts to
account for the unique facts of the case in
deviating from the 50/50 starting point.
As we noted in Uniloc:
It is of no moment that the 25 percent
rule of thumb is offered merely as a
starting point to which the Georgia–Pacific [Corp. v. U.S. Plywood Corp., 318
F.Supp. 1116 (S.D.N.Y.1970) ] factors
are then applied to bring the rate up or
down. Beginning from a fundamentally
flawed premise and adjusting it based on
legitimate considerations specific to the
facts of the case nevertheless results in
a fundamentally flawed conclusion.

1333

a patentee may not balance out an unreasonably high royalty base simply by asserting a low enough royalty rate. See
Uniloc, 632 F.3d at 1320. Although the
result of that equation would be mathematically sound if properly applied by the
jury, there is concern that the high royalty
base would cause the jury to deviate upward from the proper outcome. Id. Thus,
in Uniloc, we noted that ‘‘[t]he disclosure
that a company has made $19 billion dollars in revenue from an infringing product
cannot help but skew the damages horizon
for the jury, regardless of the contribution
of the patented component to this revenue.’’ Id. Similarly, here, the use of a
50/50 starting point—itself unjustified by
evidence about the particular facts—provides a baseline from which juries might
hesitate to stray, even if the evidence supported a radically different split.

632 F.3d at 1317. Indeed, Weinstein’s thin
attempts to explain his 10% deviation from
the 50/50 baseline in this case demonstrates how this methodology is subject to
abuse. His only testimony on the matter
was that although he ‘‘considered other
splits,’’ he ultimately determined that a
10% deviation—resulting in a 45/55 split—
was appropriate ‘‘to reflect the fact that
Apple would have additional bargaining
power over VirnetX back in TTT 2009.’’
JA. 1708–09. Such conclusory assertions
cannot form the basis of a jury’s verdict.
See Gen. Elec. Co. v. Joiner, 522 U.S. 136,
146, 118 S.Ct. 512, 139 L.Ed.2d 508 (1997)
(noting that where an expert considers
relevant material but fails to provide an
opinion explaining how that material leads
to his conclusion, ‘‘[a] court may conclude
that there is simply too great an analytical
gap between the data and the opinion proffered’’).

Even the 25% rule had its share of
support in the literature, which had observed that, at least as an anecdotal matter, a 25% royalty rate was a common
starting point—and not far off from a common end point—of licensing negotiations
across numerous industries. See Uniloc,
632 F.3d at 1313 (citing Robert Goldscheider, John Jarosz and Carla Mulhern,
Use of the 25 Per Cent Rule in Valuing
IP, 37 les Nouvelles 123, 132–33 (Dec.
2002); Stephen A. Degnan & Corwin Horton, A Survey of Licensed Royalties, 32 les
Nouvelles 91, 95 (June 1997)). Nevertheless, we rejected it, insisting on testimony
tied to the particular facts. The same
insistence is vital here.

[39] More importantly, even if an expert could identify all of the factors that
would cause negotiating parties to deviate
from the 50/50 baseline in a particular
case, the use of this methodology would
nevertheless run the significant risk of inappropriately skewing the jury’s verdict.
This same concern underlies our rule that

We note that the Nash Bargaining Solution does offer at least one noticeable improvement over the 25% rule: where the
25% rule was applied to the entire profits
associated with the allegedly infringing
product, the Nash theory focuses only on
the incremental profits earned by the infringer from the use of the asserted pat-

1334

767 FEDERAL REPORTER, 3d SERIES

ents. But while we commend parties for
using a theory that more appropriately
(and narrowly) defines the universe of
profits to be split, the suggestion that
those profits be split on a 50/50 basis—
even when adjusted to account for certain
individual circumstances—is insufficiently
tied to the facts of the case, and cannot be
supported.
For each of the reasons stated above, we
vacate the damages award and remand for
further proceedings consistent with this
opinion.
AFFIRMED–IN–PART, REVERSED–
IN–PART, VACATED–IN–PART and
REMANDED
COSTS
Each party shall bear its own costs.

,
G. David JANG, M.D., Plaintiff–
Respondent,
v.
BOSTON SCIENTIFIC CORPORATION and Scimed Life Systems,
Inc., Defendants–Petitioners.
No. 2014–134.
United States Court of Appeals,
Federal Circuit.
Sept. 16, 2014.
Background: Inventor brought action
against manufacturers, as the assignees of
a patent, alleging breach of a contract that
governed the assignment of the patents.
The United States District Court for the
Central District of California, Virginia
Anne Phillips, J., entered consent judg-

ment. The inventor appealed. The Court of
Appeals, Dyk, Circuit Judge, 532 F.3d
1330, vacated and remanded. The District
Court, Phillips, J., entered revised consent
judgment and revised stipulated summary
judgment order. The inventor appealed.
The Court of Appeals, Linn, Circuit Judge,
493 Fed.Appx. 70, reversed in part, vacated in part, and remanded. On remand, the
District Court, Phillips, J., denied the manufacturers’ motion for summary judgment,
and certified questions for interlocutory
appeal.
Holdings: The Court of Appeals, Linn,
Circuit Judge, held that:
(1) the Court had subject matter jurisdiction over the appeal, and
(2) the Court would decline to exercise
jurisdiction over the interlocutory appeal.
Petition denied.
1. Federal Courts O3906
A state-law breach of contract action
concerning royalties owed for the assignment of patents involved a patent issue
that was necessarily raised, actually disputed, substantial, and capable of resolution in federal court without disrupting the
federal-state balance approved by Congress, as required for the Court of Appeals
for the Federal Circuit to exercise exclusive jurisdiction over an interlocutory appeal from the Central District of California, even though the patents had been
found to be invalid by the United States
Patent and Trademark Office (PTO) on ex
parte reexamination, where the reexamination occurred after the breach of contract
claim was filed. 28 U.S.C.A. §§ 1292(b),
1295(a)(1), 1338(a).
2. Federal Courts O2076
Subject matter jurisdiction in diversity cases is determined on the facts as they
existed at the time the claim was filed.

EXHIBIT 2

Case: 18-1197

Document: 74

Page: 1

Filed: 01/15/2019

NOTE : This disposition is nonprecedential.

United States Court of Appeals
for the Federal Circuit
______________________

VIRNETX INC., LEIDOS, INC.,
Plaintiffs-Appellees
v.
CISCO SYSTEMS, INC.,
Defendant
APPLE INC.,
Defendant-Appellant
______________________
2018-1197
______________________
Appeal from the United States District Court for the
Eastern District of Texas in No. 6:10-cv-00417-RWS,
Judge Robert Schroeder, III.
______________________
JUDGMENT
______________________
JEFFREY A. LAMKEN, MoloLamken LLP, Washington,
DC, argued for all plaintiffs-appellees. Plaintiff-appellee
VirnetX Inc. also represented by JAMES A. BARTA,
RAYINER HASHEM, MICHAEL GREGORY PATTILLO, JR .;
ALLISON MILEO GORSUCH, New York, NY; BRADLEY
WAYNE CALDWELL, JASON DODD C ASSADY, JOHN AUSTIN
CURRY, Caldwell Cassady & Curry, Dallas, TX.

Case: 18-1197

Document: 74

Page: 2

Filed: 01/15/2019

DONALD SANTOS URRABAZO, Urrabazo Law, P.C., Los
Angeles, CA, for plaintiff-appellee Leidos, Inc. Also
represented by ANDY TINDEL, Mann, Tindel & Thompson,
Tyler, TX.
WILLIAM F. LEE, Wilmer Cutler Pickering Hale and
Dorr LLP, Boston, MA, argued for defendant-appellant.
Also represented by REBECCA A. BACT, MARK
CHRISTOPHER FLEMING, LAUREN B. FLETCHER; THOMAS
GREGORY S PRANKLING, Palo Alto, CA; BRITTANY BLUEITT
AMADI, Washington, DC.
______________________
THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
PER C URIAM (PROST, Chief Judge, MOORE and
REYNA , Circuit Judges).
AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE C OURT

January 15, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

EXHIBIT 3

Case: 18-1197

Document: 97

Page: 1

Filed: 08/01/2019

NOTE: This order is nonprecedential.

United States Court of Appeals
for the Federal Circuit
______________________

VIRNETX INC., LEIDOS, INC.,
Plaintiffs-Appellees
v.
CISCO SYSTEMS, INC.,
Defendant
APPLE INC.,
Defendant-Appellant
______________________
2018-1197
______________________
Appeal from the United States District Court for the
Eastern District of Texas in No. 6:10-cv-00417-RWS, Judge
Robert Schroeder, III.
______________________
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC
______________________

Case: 18-1197

Document: 97

Page: 2

Filed: 08/01/2019

VIRNETX INC. v. CISCO SYSTEMS, INC.

2

Before PROST, Chief Judge, NEWMAN, LOURIE, DYK,
MOORE, O’MALLEY, REYNA, WALLACH, TARANTO, CHEN,
and HUGHES, Circuit Judges *.
PER CURIAM.
ORDER
Appellant Apple Inc. filed a combined petition for panel
rehearing and rehearing en banc. A response to the petition was invited by the court and filed by Appellees Leidos,
Inc. and VirnetX Inc. The petition was referred to the
panel that heard the appeal, and thereafter the petition for
rehearing en banc was referred to the circuit judges who
are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on August 8, 2019.
FOR THE COURT
August 1, 2019
Date

*

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Circuit Judge Stoll did not participate.

